            HEARING BEFORE THE
                U.S. SENATE
           COMMITTEE ON FINANCE




                 April 12, 2007

                Washington, DC

               Michael R. Phillips
       Deputy Inspector General for Audit
Treasury Inspector General for Tax Administration
                                         STATEMENT OF

                       MICHAEL R. PHILLIPS
              DEPUTY INSPECTOR GENERAL FOR AUDIT
       TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                             before the
                           U.S. SENATE
                     COMMITTEE ON FINANCE


    “Filing Your Taxes: An Ounce of Prevention is Worth a Pound of Cure”

                                           April 12, 2007


        Chairman Baucus, Ranking Member Grassley, and Members of the Committee, I
thank you for the opportunity to testify today. I am Michael R. Phillips, Deputy Inspector
General for Audit at the Treasury Inspector General for Tax Administration. My
comments today focus on the 2007 Filing Season, identity theft, tax fraud and tax
practitioners. Each of these areas presents significant challenges for the Internal Revenue
Service (IRS).
2007 Filing Season
        The 2007 Filing Season appears to be progressing without major problems. As of
March 24, 2007, the IRS reported that it had received more than 73.7 million individual
tax returns. Of those returns, more than 53.0 million (72.0 percent) were filed
electronically. The number of electronically filed tax returns is 5.6 percent higher than at
the same time last year. The IRS has issued more than 62.9 million refunds for a total of
$152.8 billion.
        While the IRS has seen a growth in the number of electronically filed tax returns
so far this filing season, the number of Free File returns is down slightly. As of
March 24, 2007, the IRS received approximately 2.8 million tax returns through the Free
File Program, compared to approximately 2.9 million returns at the same time last year.
        The Free File Program provides taxpayers with access to free online tax
preparation and e-filing services made possible through a partnership agreement between
the IRS and the tax software industry. The IRS Restructuring and Reform Act of 1998
(RRA 98)1 required the IRS to work with private industry to increase electronic filing. In
response to this requirement, in 2003 the Department of the Treasury (Treasury), the
Office of Management and Budget, and the IRS launched the Free File Program featuring
private-sector partners that allow qualifying taxpayers to prepare and file their tax returns
online for free. The Treasury, the Office of Management and Budget, and the IRS made
this possible through a public-private partnership with a consortium of tax software

1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                    2
companies, the Free File Alliance, LLC (Alliance). Eligible taxpayers may prepare and
e-file their Federal income tax returns using commercial online software provided by
Alliance members. The Free File Program debuted in January 2003. According to
statistics provided by the Alliance, approximately 2.8 million taxpayers used the program
during its first year. In subsequent years, use of the Free File Program increased
significantly to about 3.5 million taxpayers in 2004 and about 5.1 million taxpayers in
2005.
        The RRA 98 established a goal for the IRS to have 80 percent of Federal tax and
information returns filed electronically by 2007. Recognizing that the IRS will not meet
this goal, the IRS Oversight Board recommended an extension of the goal to 2012. The
IRS Oversight Board has consistently stated that the 80 percent e-file goal has been a
major contributing factor to the growth of electronic filing. Based on existing trends
through 2006, it is indeed unlikely that a sufficient number of taxpayers will shift to e-file
in 2007 to overcome the IRS’ shortfall. Nevertheless, because the goal has had such a
positive effect, the IRS Oversight Board recommended that Congress extend it to 2012
and expand its scope. According to IRS Oversight Board Chairman Paul B. Jones,
“While it is clear that the IRS will not achieve the ambitious 80 percent goal this year, we
do not view this as a failure. Rather, the IRS and its private sector partners have
achieved continuous and significant progress in all parts of electronic tax administration
very much in keeping with RRA 98’s intent.”
Providing Quality Customer Service
       While the IRS continues to face longstanding challenges, it deserves recognition
for making progress in an area that will always be a challenge: providing quality
customer service to the American taxpayer. Quality customer service is the first
component of Commissioner Everson’s principle for the IRS: Service + Enforcement =
Compliance. Over the past few years, TIGTA audits have shown that the IRS has
improved customer assistance in its face-to-face, toll-free telephone, tax return
processing, and electronic services, including the IRS public Internet site
(www.IRS.gov).2
         IRS.gov
         IRS.gov continues to be one of the most visited Web sites in the world, especially
during filing seasons. As of March 24, 2007, the IRS reported more than 97 million
visits to its IRS.gov Web site. Additionally, the IRS now provides practitioners with
online tools to provide better service to their customers such as electronic account
resolution, transcript delivery, and disclosure authorization.
         Toll-Free Operations
        As of March 24, 2007, the IRS’ assistor level of service was 83.6 percent, which
is a decrease of less than 1 percent compared to the same week last year.3 However, the
cumulative filing season assistor level of service is currently 2.5 percent higher than the

2
  Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations (TIGTA Reference
Number 2006-40-052, dated February 2006).
3
  Assistor level of service is the primary measure of providing service to taxpayers. It is the relative
success rate of taxpayers who call for services on the IRS’ toll-free telephone lines.


                                                     3
IRS’ planned assistor level of service of 81.1 percent. The IRS answered 10.3 million
calls compared to 10.5 million at this time last year. The IRS also completed
14.4 million automated calls; a decrease of 5.7 percent from last year’s 15.3 million. It
appears that automation demand is materializing slightly later than last year.
       Taxpayer Assistance Centers
        Taxpayer Assistance Centers (TAC) are walk-in sites where taxpayers can receive
answers to both account and tax law questions, as well as receive assistance in preparing
their returns. TIGTA is currently in the process of making anonymous visits to TACs to
determine if taxpayers are receiving quality service, including correct answers to their
questions. As of March 24, 2007, there was approximately the same number of walk-in
contacts as there was for the same period last year.
       Volunteer Income Tax Assistance (VITA) Program
        The Volunteer Income Tax Assistance (VITA) Program plays an increasingly
important role in the IRS’ efforts to improve taxpayer service and facilitate participation
in the tax system. The VITA Program provides no-cost Federal tax return preparation
and electronic filing to underserved taxpayer segments, including low income, elderly,
disabled, and taxpayers with limited proficiency in English. These taxpayers are
frequently involved in complex family situations that make it difficult to correctly
understand and apply tax law.
        For Filing Season 2007, TIGTA is including the American Association of Retired
Persons-sponsored Tax Counseling for the Elderly sites in its testing of VITA sites.
TIGTA plans to visit 39 VITA sites to determine if taxpayers received quality service,
including the accurate preparation of their individual income tax returns. TIGTA
developed scenarios designed to present volunteers with a wide range of tax law topics
that taxpayers may need assistance with when preparing their tax returns. These
scenarios included the characteristics (e.g., income level, credits claimed, etc.) of tax
returns typically prepared by the VITA Program volunteers based on an analysis of the
Tax Year 2005 VITA-prepared tax returns.
       As of March 30, 2007, TIGTA has had 33 tax returns prepared with a 48 percent
accuracy rate, compared to the 39 percent accuracy rate reported for the 2006 Filing
Season. TIGTA’s observations are that volunteers did not always use the tools and
information available when preparing returns. TIGTA will report its final results in
August 2007. See Figure 1 for comparisons of VITA Program activities for the 2006 and
2007 Filing Seasons through March 24, 2007.




                                             4
                  Figure 1 Year-to-Date Comparisons of the Returns Prepared
                           During the 2006 and 2007 Filing Seasons
                                   Through March 24, 2007

                                                      2006               2007                  %
                                                      Actual             Actual              Change
    Volunteer Return Preparation
                                                          1.5                 1.7             12.3%
    (in millions)

    Volunteer E-File
                                                      91.2%               92.2%                1.1%
    (percent)
Source: IRS 2007 Filing Season Weekly Reports.
       TIGTA is also conducting limited tests to determine if VITA sites are in
compliance with privacy and security guidelines for the protection of taxpayer
information. TIGTA’s results as of March 30, 2007, show:
      •   97 percent (32 of 33) of volunteer computers were password-protected.
      •   39 percent (13 of 33) of volunteer computers had encryption software.
       For Fiscal Year 2008, the IRS is requesting an additional $5 million and 46 Full
Time Equivalent4 to expand the VITA Program. According to the IRS, this will help
“expand the IRS’ volunteer return preparation, outreach and education, and asset
building services to low-income, elderly, Limited English Proficient, and disabled
taxpayers.”
Telephone Excise Tax Refunds
        The telephone excise tax refund is the most wide-reaching refund in the history of
the IRS. It is a one-time refund that the IRS estimated would affect between 151 million
and 189 million people, including many without a filing requirement. The IRS developed
a process to refund these monies on a timely basis and made the refund request process
relatively easy for most taxpayers. At the same time, the IRS wanted to minimize
refunds in excess of taxes collected and discourage overstated refund requests.
       To minimize the number of overstated refund requests and the administrative
burden on individual taxpayers, the IRS decided to offer individuals standard refund
amounts. Use of the standard amounts should significantly reduce taxpayer burden since
no records are needed to support taxpayers’ requests. Individuals do not have to
assemble 41 months of telephone bills to determine their refund amounts. Requesting the
standard amounts requires the completion of only one additional line on the tax return.
       However, taxpayers are not required to request the standard amounts. If taxpayers
do not choose to claim the standard amounts, they must file Form 8913, Credit for
Federal Telephone Excise Tax Paid, with their U.S. Individual Income Tax Return (Form

4
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2005, 1 FTE was equal to 2,088 hours.



                                                  5
1040 series). Taxpayers must attach Forms 8913 to their Forms 1040 to support any
claims for more than the standard amount.
        The standard amounts developed by the IRS have proved to be very effective.
Through the week ending March 24, 2007, IRS records indicate that 99.6 percent of
telephone excise tax refund claims filed was for standard amounts. However, through
this same time period, just over 30 percent of the individual tax returns filed contained no
claim for a telephone excise tax refund, which indicates that many taxpayers may not be
aware of their opportunity to claim this refund. TIGTA will be monitoring the steps the
IRS takes to address this issue.5
          Processing Claims
              TIGTA has raised the following concerns to the IRS regarding the processing
      of returns claiming telephone excise tax refunds for non-standard amounts:
      •   Thresholds were set too high for the IRS to take action when taxpayers claimed
          refunds for more than the standard amounts but did not provide the required
          Form 8913 to substantiate their claims.
      •   Thresholds were set too high for the IRS to take action when taxpayers’ entries on
          their tax returns (Form 1040 series) did not correspond with amounts on
          Form 8913, i.e., taxpayers claimed one amount on their tax return and a different
          amount on their Form 8913.
       When TIGTA reported these issues, the IRS took immediate steps to address the
problems.
          Compliance Efforts
        The IRS also developed a compliance strategy to address egregious claims. The
strategy includes identifying tax returns with claims for telephone excise tax refunds
exceeding certain dollar thresholds and freezing the telephone excise tax portion of the
refunds associated with those returns until the claims could be audited.
        TIGTA has also raised concerns with the IRS’ implementation of its compliance
strategy related to these claims. In TIGTA’s opinion, the dollar threshold used to identify
potentially egregious claims is again set too high. TIGTA first raised this concern to the
IRS on February 16, 2007. TIGTA analyzed over 23,000 claims that requested telephone
excise tax refunds for amounts considered to be highly questionable but that did not meet
the IRS’ criteria for further review. The analysis revealed the following:
      •   The amount of telephone excise tax refunds on these claims totaled more than
          $21 million.
      •   Taxpayers making most of these claims (68 percent) would have had to pay long
          distance or bundled telephone service charges equal to more than 25 percent of
          their total annual income to justify their claims.




5
    Telephone Excise Tax Refund (TIGTA Audit Number 200630036).


                                                 6
    •    Taxpayers making 11 percent of these claims would have had to pay more for
         long distance or bundled telephone services in a year than their annual income to
         justify their claims.
    •    As of March 24, 2007, over 39,000 such claims had been received that did not
         meet the IRS’ criteria for review. The amount of telephone excise tax refunds on
         these claims totaled over $33.8 million. Over 30,000 of these claims were on tax
         returns with no Schedules C, E or F,6 which makes the claimed amounts even
         more questionable.
       The IRS set its threshold high because its examination resources are limited and
because it believes that examinations of returns claiming the Earned Income Credit
(EITC) 7 and other discretionary examinations will result in higher assessment rates than
examinations of the telephone excise tax refund claims. However, other factors may
need to be considered. For example:
    •    Many taxpayers filing large claims appear to be entering the total amount billed
         for long distance and bundled service rather than the Federal excise tax associated
         with those amounts. This may be due to taxpayers misunderstanding the
         instructions on Form 8913. Taxpayers making legitimate mistakes may very well
         be willing to self-correct their returns if the IRS informs them that they appeared
         to have claimed their entire phone bill or long distance bill rather than only the
         Federal excise tax associated with their bill. Addressing many of these cases may
         not require examination resources.
    •    Because telephone excise tax refund claims are not subject to the regular
         assessment process, most of these claims should be worked before refunds are
         issued. Discretionary examination programs can be worked after refunds are
         issued, if necessary.
    •    If worked prior to the refunds being issued, these cases represent dollars that can
         be immediately recognized by the Federal Government as improper refunds not
         issued. In contrast, other examination cases represent assessments that may or
         may not be collected. A recent TIGTA report found that in FY 2004, the IRS
         assessed more than $2.1 billion in additional taxes on high-income taxpayers
         through its examination program. The report estimated that approximately
         $1.2 billion (57 percent) of that amount was either abated or not collected after an
         average of 608 days from the date of assessment.8
    •    The telephone excise tax refund is a high profile issue. For example,
         inappropriate telephone excise tax refund claims are now the Number One item in
         the IRS’ “Dirty Dozen” list of tax scams. In a news release issued early in the
         filing season, Commissioner Everson stated, "People requesting an inflated
6
  Various schedules may be attached to a tax return, if needed. Schedule C is for reporting Profit or Loss
From Business; Schedule E is for Supplemental Income and Loss; and Schedule F is for Profit or Loss
From Farming.
7
  The Earned Income Tax Credit (EITC) is a refundable credit designed to help move low-income
taxpayers above the poverty level.
8
  While Examinations of High-Income Taxpayers Have Increased, the Impact on Compliance May Be
Limited (TIGTA Reference Number 2006-30-105, dated July 25, 2006)


                                                     7
       amount will likely see their refund frozen, may have their entire tax return audited
       and even face criminal prosecution where warranted. We won't stand idly by
       while some people try to cheat their neighbors and make off with money they don't
       deserve.” Allowing fraud to go unchecked in an area that the IRS has declared as
       a major priority may have a very negative effect on taxpayer compliance in the
       future.
        Taking into consideration the preceding factors, TIGTA recommended that the
IRS re-examine all options at its disposal to address significantly more inappropriate
telephone excise tax refund claims, including offering taxpayers the opportunity to self-
correct their returns, postponing some examination work, and having non-examination
employees work (or partially work) some of the simpler cases.
        The IRS responded to TIGTA’s concerns, stating that it does not plan to make
adjustments to the threshold amounts. The IRS’ written response did not address
TIGTA’s recommendation to allow taxpayers to self-correct their returns; however,
during discussions IRS officials stated that they had no plans to issue notices to taxpayers
and allow them to self-correct their errors because IRS officials believe: such notices
would be ineffective; the IRS has limited resources to work the responses; and there
would be many “no response” cases for them to work.
         Given the opportunity, many taxpayers overclaiming the telephone excise tax
refund based on a misunderstanding of the instructions for Form 8913 may voluntarily
self-correct the error. However, the time for IRS to develop a process and notice to
facilitate this is limited and may actually be past.
        TIGTA has also shared concerns about paid preparers and the telephone excise
tax refund with the IRS. As of March 24, 2007, a paid preparer had filed over 1,300
other returns with telephone excise tax refund claims exceeding the standard amounts.
Only 8 of this preparer’s claims have exceeded the IRS’ tolerance. TIGTA referred this
preparer to the IRS’ Criminal Investigation function. The IRS requested information
from TIGTA regarding on other questionable preparers that may be avoiding IRS
scrutiny. TIGTA provided the requested information to the IRS on other preparers.
Among them:
   •   One preparer has filed 1,019 claims totaling over $677,000. The claims are all
       under IRS’ tolerance, and most of the claims are for one of five amounts that are
       repeated on the filed claims.
   •   One preparer has filed 1,138 claims. The preparer has filed returns for taxpayers
       in 31 different States. In addition to telephone excise tax refund claims, over 95
       percent of the returns also claim employee business expenses.
Notice Trends
        Many taxpayers who are 65 years or older (seniors), taxpayers who have claimed
the EITC, and taxpayers who have computed self-employment tax have received
repetitive math error notices (i.e., the taxpayers had received a notice addressing the same
issue in the prior year). Taxpayers who receive repetitive notices may not understand or
are repeatedly overlooking specific instructions provided by the IRS. These taxpayers
may also not understand an area of tax law. Additionally, the current filing information


                                             8
available to these taxpayers, including notices, may be inadequate. Notices should not
only inform taxpayers of their errors but should also educate them on the issues, and be a
means to ensure that the errors do not occur in the future. Unclear or inadequate tax
information and notices create an additional burden on taxpayers and often result in
additional work and expense for the IRS.
        Annually, the IRS sends over 100 million notices to taxpayers; the IRS estimates
this costs more than $400 million.9 Over 7 million of these notices are math error
notices, which inform taxpayers that changes were made to their tax returns as a result of
mathematical or clerical errors. The notices explain the nature of the changes and include
account statements showing how the changes affect the returns. Overall, the vast
majority of taxpayers receiving these notices do not repeat their errors in subsequent
years. Further, very few business taxpayers receive repeat math error notices. The
notices with a higher repeat rate are those sent to individual taxpayers and are related to a
few areas of tax law. Five notices accounted for 40 percent of all repetitive math error
notices issued to individual taxpayers, despite being only 13 percent of the total number
issued.
      •    Senior taxpayers repeatedly made two errors when computing their taxes: (1)
           miscomputing their taxable amounts of Social Security benefits and (2) claiming
           an incorrect standard deduction. Random non-statistical samples of 80 senior
           taxpayers making one of these two errors showed that 95 percent had prepared
           their own returns. The average age of these taxpayers was 72, and 24 percent of
           them were 80 years of age or older.
      •    Taxpayers repeatedly made two errors related to the EITC. Most of these
           taxpayers made calculation errors, and others inappropriately claimed the EITC
           after having been prohibited from doing so and not recertifying that they were
           qualified for the EITC. Taxpayers making the repetitive calculation errors had
           either: (1) used the EITC Tables incorrectly year after year; or (2) filed a Profit or
           Loss From Business (Schedule C) but, for two or three years in a row, had failed
           to deduct one-half of their self-employment tax from the earned income amounts
           before computing the EITC. The issue regarding recertification for the EITC has
           been reported in prior TIGTA audit reports, and the IRS is working on corrective
           actions; therefore, TIGTA made no recommendations concerning the issue.
      •    Taxpayers made repetitive errors when computing or reporting their self-
           employment tax. Many of the taxpayers in TIGTA’s sample calculated the self-
           employment tax correctly but repeatedly carried the wrong amounts forward to
           their U.S. Individual Income Tax Returns (Form 1040). Other taxpayers
           calculated the self-employment tax incorrectly. A common cause was that
           taxpayers did not begin the computation by multiplying the self-employment
           earnings by 92.35 percent, as instructed.




9
    Based on a 2001 IRS estimate.


                                                 9
        TIGTA recommended that the IRS modify the math error notices that have been
sent repeatedly to taxpayers, to provide a clearer and more informative explanation of the
errors taxpayers are making. In addition, TIGTA recommended that the IRS make
changes to the forms and instructions associated with the provisions that have resulted in
issuance of an inordinate number of repetitive notices. Finally, the IRS should continue
to build on the research and analysis already performed to develop the most effective
ways to simplify tax preparation for senior taxpayers.10
Customer Account Data Engine
        The Customer Account Data Engine (CADE) project will provide the foundation
for managing taxpayer accounts to achieve the IRS’ modernization vision. The CADE
consists of databases and related applications that will replace the IRS’ existing Master
File processing systems, which are the IRS’ official repository of taxpayer information.
        Congress authorized $54 million in Fiscal Year (FY) 2005 and $60 million in
FY 2006 for the CADE. Additionally, the IRS requested $85 million in FY 2007 for the
CADE, but this amount has been reduced to about $58 million. Through FY 2007,
CADE project release costs total about $233.9 million. The IRS initiated the CADE
project in September 1999 and began delivering releases in August 2004.
        During Calendar Year (CY) 2006, the CADE posted over 7.3 million tax returns
and generated more than $3.4 billon in refunds. This is a significant increase over the
1.4 million tax returns posted in CY 2005 that generated refunds totaling more than $427
million. The CADE is now in the process of completing delivery of Release 2.2. Release
2.2 will process 2007 Filing Season tax law revisions (Tax Year 2006) and additional tax
forms.11
       On February 27, 2007, the IRS and the PRIME12 contractor put Release 2.2 into
production, but because computer reports on the number of returns received did not
match the number of returns posted, the CADE was turned off and tax returns were sent
back to the current IRS processing system. The IRS reports that a major portion of
Release 2.2 was successfully put into production on March 6, 2007, (seven weeks late).
On the first day, it posted over 571,000 tax returns of which 566,332 contained refunds.
Because of the late start into production, the IRS goal of using the CADE to process 33
million tax returns will not be met. According to IRS officials, the latest estimate is that
the IRS will complete the deployment of Release 2.2 by the end of April 2007, and it will
post between 16 million to 19 million returns during the 2007 Filing Season.
Electronic Fraud Detection System
        The Electronic Fraud Detection System (EFDS) is the primary information system
used to support the Criminal Investigation Division’s Questionable Refund Program,

10
   Draft Report Opportunities Exist to Help Seniors and Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns (TIGTA Audit Number 200630004, dated
March 20, 2007).
11
   Customer Account Data Engine (TIGTA Audit Number 200620012).
12
   The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading
technology companies brought together to assist with the IRS’ efforts to modernize its computer systems
and related information technology.



                                                   10
which is a nationwide program established in January 1997 to detect and stop fraudulent
and fictitious claims for refunds on income tax returns. Last year, the EFDS was not
operational because the IRS and its contractors were unable to launch a Web-based
version of the EFDS application (Web EFDS), resulting in an estimated $318.3 million in
fraudulent refunds being issued as of May 19, 2006.13
       On April 19, 2006, all system development activities for the Web EFDS were
stopped, and all efforts were focused on restoring the client-server EFDS for use on
January 16, 2007. The restoration effort required the contractors to prepare the EFDS
and the related databases for 2007 by starting with the 2005 EFDS and updating it with
the 2006 and 2007 tax law changes.
        In October 2006, TIGTA initiated an audit to determine whether the IRS was
adequately monitoring the contractor’s development efforts in 2006 to ensure that a
system was delivered in time for the 2007 Filing Season. TIGTA found that the IRS
improved controls over the EFDS restoration activities, including executive governance
and project management. As a result, project risks were being identified and mitigation
actions were being taken to ensure that the EFDS was implemented and fraudulent
refunds stopped during 2007.14
        On January 16, 2007, the IRS and its contractors put the EFDS into production.
The IRS reported that the telephone excise tax refund, split refund, and extender
legislation requirements were implemented as scheduled on January 29, 2007. The IRS
also reported that the EFDS continues to operate without critical problems.
Identity Theft
         Identity theft is a growing national problem, but the percentage of identity theft
cases affecting tax administration is still relatively small. Out of the 246,035 identity
theft complaints reported to the Federal Trade Commission in 2006, approximately
20 percent (49,699 complaints) have had some impact on tax administration. The
remaining identity theft complaints were related to credit card fraud, telephone and
utilities fraud, bank fraud, Government benefits fraud, and other forms of fraud. While
the overall number of taxpayers affected by identity theft related to tax administration is
small, it can be very frustrating and time consuming for each victim to resolve his or her
situation with the IRS.
        There are two primary types of identity thefts that relate to tax administration.
The first type involves an individual using another person’s name and Social Security
number to file a fraudulent tax return in order to steal a tax refund. The second type
involves using another person’s Social Security number to obtain employment.
       According to the identity theft complaints that the Federal Trade Commission
received during 2002-2006,15 the number of fraudulent tax returns filed as a result of an

13
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds
Not Being Identified (TIGTA Reference Number 2006-20-108, dated August 9, 2006).
14
   Draft Report Sufficient Emphasis Was Not Placed on Resolving Security Vulnerabilities When Restoring
the Electronic Fraud Detection System (TIGTA Audit Number 200720028, date April 3, 2007).
15
   FTC Identity Theft Victim Complaint Data Figures and Trends January 1 - December 31, 2002; FTC
National and State Trends in Fraud & Identity Theft January – December 2003, dated January 22, 2004;


                                                  11
identity theft has steadily increased from 3,075 to 15,254 (396 percent increase). The
number of complaints on employment-related identity theft fraud more than doubled
from 15,049 to 34,445 (129 percent) during the same time period.
        In July 2005, TIGTA reported16 that the IRS lacked a corporate strategy to
adequately address identity theft issues. In response to some of TIGTA’s
recommendations, the IRS agreed to develop: (1) updated agency-wide communication
tools to be used to educate and assist taxpayers with information about identity theft; (2)
agency-wide standards to ensure that the information taxpayers were asked to provide to
substantiate identity theft claims is consistent throughout the IRS; (3) specific closing
codes for cases involving identity theft that would allow the IRS to track and monitor the
effect of identity theft on tax administration; and (4) processes to proactively identify
instances of identity theft.
        In response to TIGTA’s report, the IRS established the Identity Theft Program
Office in October 2005 to provide centralized development of policy and procedural
guidance within tax administration and to implement an agency-wide strategy composed
of three components: outreach, prevention and victim assistance. The Office was
established in the Wage and Investment Division to facilitate cross-functional
coordination.
        During the past two years, the Identity Theft Program Office has predominantly
focused on outreach and education efforts. For example, the Office created the Identity
Theft Webpage on IRS.gov and prepared various publications and a DVD on identity
theft. In addition, the Office has drafted a memorandum for IRS employees,
standardizing the following documentation requirements for taxpayers to substantiate
identity theft:
    •   Authentication of identity – a copy of one of more valid U.S. Federal or State
        government-issued forms of identification (i.e., social security card, passport,
        driver’s license, and State identification card).
    •   Evidence of identity theft – a copy of a police report or Affidavit of Identity Theft
        filed with the Federal Trade Commission.
       Although TIGTA recommended in its 2005 report that the IRS standardize the
requirements for taxpayers to support their identity theft claims, as of April 2007, the
memorandum that the IRS created to disseminate this information to its employees is still
under review and has not yet been issued.
        The IRS currently does not have a uniform process in every function for
identifying cases closed as a result of identity theft. In response to TIGTA’s
recommendation, the IRS agreed to refine certain coding to identify some identity theft
case closures. For example, starting with Tax Year 2003, the IRS began using unique
codes in one of its databases for identity theft case closures that resulted in no change in
the tax liability (thus indicating that the actual taxpayer did not underreport; rather the

and FTC Consumer Fraud and Identity Theft Complaint Data January – December 2006, dated February
2007.
16
   A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft (TIGTA Reference
Number 2005-40-106, dated July 2005).


                                                 12
underreporting came as a result of another person using the number for employment).
However, the special codes are not readily identifiable as identity theft closures to most
IRS employees. The IRS is currently in the process of establishing a universal identity
theft code. This coding will allow anyone looking at an account on the Master File to see
if a taxpayer has previously reported to the IRS that his or her identity had been stolen.
        Given the limited identity theft case tracking information currently available, the
IRS, in TIGTA’s opinion, still lacks the comprehensive data needed to determine the
impact that identity theft has on tax administration. More importantly, the IRS is unable
to identify specific identity theft trends or take proactive steps to identify these cases in
order to reduce the burden on taxpayers.
        TIGTA is currently reviewing the IRS’ identity theft efforts. During TIGTA’s
on-going review, the Identity Theft Program Office has stated that the IRS does not use
the Federal Trade Commission’s Identity Theft Clearinghouse database because all
information is self-reported by the taxpayer without any form of data validation, and a
majority of the identity theft complaints are for consumer fraud (i.e. stolen credit cards)
rather than tax administration. According to an October 20, 2006, IRS briefing
document, leveraging the identity theft information gathered from agencies such as the
Federal Trade Commission to better identify taxpayers who have been victims of identify
theft was rated as one of the lowest scoring strategies.
        The IRS has not performed analyses to identify employers who consistently report
wages for employees using stolen Social Security numbers. The IRS’ actions are
therefore largely re-active in assisting victims of identity theft after they contact the IRS
as a result of notice or enforcement action. The Identity Theft Program Office does not
track the number of identity theft referrals to the Criminal Investigation function.
However, the Criminal Investigation function only investigates identity theft issues in
conjunction with other criminal offenses.
        The problem of using a stolen Social Security Number for employment is
compounded by the limited actions that employers may take. The Social Security
Administration’s Web site directs employers not to use the Social Security Number
Verification Service “to take punitive actions against an employee whose name and
Social Security Number do not match Social Security’s records.” The Web site also
states:
   •   “A mis-match does not imply that you or the employee intentionally provided
       incorrect information.
   •   A mis-match does not make any statement about an employee’s immigration
       status and is not a basis, in and of itself, for taking any adverse action against an
       employee. Doing so could subject you to anti-discrimination or labor law
       sanctions.”
      The IRS is in the process of moving the Identity Theft Program Office from the
Wage and Investment Division to the Mission Assurance and Security Services (Mission
Assurance) organization. According to the December 21, 2006, Memorandum of
Understanding between Mission Assurance and the Wage and Investment Division,
“…Identity Theft will be incorporated as part of enterprise information protection and


                                             13
will not be managed as a stand alone program office.” In fact, none of the Identity Theft
Program staff are moving to Mission Assurance. Mission Assurance “may facilitate but
will not direct activities determined to be tax administration or individual taxpayer
assistance in nature.” Mission Assurance’s specific role will be further refined as the
organization engages with the business divisions.17
       The impact of the Identity Theft Program Office reorganization is unclear.
However, TIGTA believes that in the short-term the IRS’ assistance to individual
taxpayers victimized by identity theft will not improve from this realignment.
       TIGTA is also currently conducting an audit to determine the progress the IRS
has made in ensuring the privacy and security of personally identifiable information. The
assessment will be based on prior audits of significant privacy-related issues that TIGTA
reported during the past four fiscal years.
        The IRS processes over 130 million tax returns and processes personally
identifiable information on approximately 240 computer systems. Almost all of its
employees and contractors have access to at least some of this information, making the
protection of the data a significant challenge. The sensitivity of the data also makes IRS
computer systems an attractive target for hackers and others who could use the
information for identity theft.
        The IRS has taken several actions to protect personally identifiable information in
its possession and to make the IRS a more security conscious organization.
     •   The IRS has established a Security Service and Privacy Executive Steering
         Committee to serve as the primary governance body for all matters relating to
         security and privacy issues in the IRS.
     •   Communications from the IRS Commissioner have set the tone to create a strong
         security environment by advising IRS managers that employees need to be
         reminded of their responsibilities to safeguard personally identifiable information
         and by dispelling the perception that security is solely the responsibility of the
         Mission Assurance and Security Services organization.
     •   The importance of protecting personally identifiable information will be
         emphasized in a video scheduled for distribution to IRS employees in the third
         quarter of Fiscal Year 2007. The video will include statements by the IRS
         Commissioner and the Treasury Inspector General for Tax Administration.
     •   The IRS has made significant improvements in its certification and accreditation18
         process. For Fiscal Year 2006, the IRS reported its computer systems had a
         certification and accreditation rate of 95 percent, which is an improvement over


17
   Memorandum of Understanding, dated December 21, 2006, Mission Assurance and Security Services
and Wage and Investment, Identity Theft Program Transition.
18
   Security certification is a comprehensive assessment of the management, operational, and technical
security controls in an information system, made in support of an accreditation, to determine the extent to
which the controls are implemented correctly and operating as intended. Accreditation is the official
management decision given by the owner of the information system to authorize the operation of the
system and to explicitly accept the risks.


                                                     14
           Fiscal Year 2005 when only 35 percent of the systems were certified and
           accredited.
      •    The IRS has made steady progress in recent years in complying with the
           requirements of the Federal Information Security Management Act of 2002.
           During 2006, the IRS reassessed the security risks of its computer systems, and
           TIGTA is confident that the inventory is substantially complete and the risk
           categorizations of the computer systems are accurate.
      •    The IRS satisfied a major requirement of the Consolidated Appropriations Act of
           200519 by appointing a Chief Privacy Officer to assume responsibility for privacy
           and data protection policies. The Chief Privacy Officer completed a
           comprehensive assessment of the IRS’ privacy and data protection procedures and
           made recommendations to strengthen the controls.
        However, TIGTA’s reviews during the past four fiscal years identified persistent
computer security weaknesses that continue to jeopardize the security of personally
identifiable information. IRS managers and employees are not complying with
established security procedures. Furthermore, IRS executive management is not holding
managers and employees accountable for carrying out their responsibilities and for
ensuring that managers and employees are aware of the security risks associated with
their positions. The following are some of the security issues that TIGTA identified
during the last four fiscal years.
      •    Employees were not encrypting personally identifiable information on their laptop
           computers and other electronic media.
      •    Employees did not properly report incidents of lost or stolen computers and
           personally identifiable information.
      •    The Office of Privacy and Information Protection did not take steps to ensure that
           the privacy of sensitive data was evaluated for all computer systems processing
           personally identifiable information.
      •    Managers were not consistently reviewing audit trail information to identify
           unauthorized accesses to taxpayer accounts.
      •    Managers and employees were susceptible to social engineering techniques.
      •    Employees were not following the email use policy.
      •    The IRS and its contractors were not integrating security controls into modernized
           computer systems.
        In addition, the foundation of computer security within an organization starts with
strong policies and procedures that dictate what employees can and cannot do while
performing their jobs. The IRS’ policies do not explicitly identify rules that govern
physical removal of and remote access to personally identifiable information. The lack of
a detailed organizational policy increases the likelihood that employees are unaware of
risks and are not adequately protecting personally identifiable information.

19
     Pub. L. No. 108-447, 118 Stat. 2809.


                                               15
Fraud and Noncompliance
        The IRS estimates that fraudulent refund claims exceed $500 million a year.
Congress has held hearings urging the IRS to devote additional resources to improve its
detection of fraudulent refunds, particularly claims filed by prisoners. At the same time,
the National Taxpayer Advocate (Advocate) reported that actions taken by the IRS
adversely affected taxpayers’ rights.
        The Criminal Investigation function reported that, as of December 1, 2005, it
identified 132,945 fraudulent refund returns claiming $515.5 million in refunds during
Processing Year 2005.20 In contrast, through September 29, 2006, the Criminal
Investigation function identified only 44,788 fraudulent returns claiming $232.3 million
in refunds during Processing Year 2006. The dramatic decrease occurred because the
redesigned EFDS Web-based application was not implemented due to a lack of adequate
oversight and monitoring of the project, as TIGTA previously reported.21
Questionable Refund Program and Prisoner Fraud
        TIGTA has repeatedly reported over the last seven years that additional controls
and procedures were necessary to identify instances of potential fraud.22 TIGTA
concluded in a recent draft report that changes during Processing Year 2006 had a
detrimental impact on identifying fraudulent returns and will have an undeterminable
affect on Processing Year 2007. 23 TIGTA is continuing its efforts, through a separate
review, to evaluate the new procedures and the validity of the scoring methodology used
by the Criminal Investigation function to identify potentially fraudulent returns and
compiling demographic profiles of taxpayers to determine the effectiveness of the IRS’
screening process.24

        In April 2005, the House Ways and Means’ Subcommittee on Oversight
expressed concerns about the increase in refund fraud committed by individuals
incarcerated in Federal and State prisons. TIGTA issued a report in response to that
request, citing that the number of fraudulent prisoner returns identified by the Criminal
Investigation function grew 318 percent, from about 4,300 during Processing Year 2002



20
   The year in which taxpayers file their returns with the IRS. For example, most Tax Year 2004 returns
were filed in Processing Year 2005.
21
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds
Not Being Identified (TIGTA Reference Number 2006-20-108, dated August 9, 2006).
22
   Audit reports previously issued: The Internal Revenue Service Can Improve the Effectiveness of
Questionable Refund Detection Team Activities (Reference Number 2000-40-018, dated December 1999);
Revised Questionable Refund Program Procedures Were Not Consistently Implemented (Reference
Number 2001-40-025, dated January 2001); Improvements Are Needed in the Monitoring of Criminal
Investigation Controls Placed on Taxpayers’ Accounts When Refund Fraud Is Suspected (Reference
Number 2003-10-094, dated March 2003); and The Internal Revenue Service Needs to Do More to Stop the
Millions of Dollars in Fraudulent Refunds Paid to Prisoners (Reference Number 2005-10-164, dated
September 2005).
23
   Draft Report Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program;
However, Many Concerns Remain, With Millions of Dollars at Risk (TIGTA Audit Number 200610003).
24
   Questionable Refund Program Phase II (TIGTA Audit Number 200710024).


                                                  16
to over 18,000 during Processing Year 2004. 25 Statistics obtained from the Criminal
Investigation function show that during PY 2005, almost 20,000 prisoner returns claimed
over $834 million in refunds, including $407 million in the EITC.
        Due to the failures of the EFDS in Processing Year 2006, the Criminal
Investigation function was unable to identify prisoner returns through data mining
techniques. Instead, the Criminal Investigation function used various criteria to freeze
prisoner refunds for tax returns on which the identifying information on the returns
matched prisoner information for the Federal, State, and local prisons.
        As a result, only 4,235 prisoner returns claiming about $19 million in refunds
were identified as fraudulent in Processing Year 2006 and only $11.5 million in refunds
were stopped. In contrast, during Processing Year 2004, 18,159 prisoner returns claiming
$68.2 million in fraudulent refunds were identified and 14,033 refunds totaling
$53.5 million were stopped. This shows the potential magnitude of the IRS’ lost ability
to detect and stop fraudulent prisoner refunds during Processing Year 2006. TIGTA
remains concerned about how fraudulent prisoner returns are identified. The Criminal
Investigation function requested programming changes to the EFDS for Processing Year
2007 that effectively eliminated a certain category of prisoner refunds from the screening
process, believing prisoners in this category were less likely to commit fraud.
        TIGTA is pleased to note that an amendment to H.R. 1677 was approved by the
U.S. House of Representatives on March 28, 2007. The amendment would revise
Internal Revenue Code § 6103 to temporarily allow the IRS to share prisoners’ tax
information with the Federal Bureau of Prisons to prevent Federal tax fraud schemes
originating from prisons. While this is an important step to combat refund fraud by
prisoners, TIGTA is concerned that the amendment is limited only to disclosures to the
Federal Bureau of Prisons. Analysis during TIGTA’s previous audits determined that
about 85 percent of fraudulent prisoner returns were filed by inmates in State prisons.
TIGTA recommends that Congress and the Department of the Treasury consider
including disclosure to State prisons as well.
        Identity theft is a growing problem with refund fraud. Of the 44,788 refunds
verified as fraudulent during Processing Year 2006 through September 29, 2006, the
Criminal Investigation function indicated 7,957 (17.8 percent) involved identity theft.
The Advocate’s 2005 Report to the Congress took exception to the Criminal Investigation
function’s policy of automatically freezing the current and future years’ refunds of
identity theft victims. The Advocate expressed concern that this policy is overly broad
and causes significant and continuing inconvenience. The Advocate’s report indicated a
need for an IRS-wide system that identifies which taxpayers are the victims of identity
theft. In response to the Advocate’s concern, the IRS no longer freezes accounts
involving identity theft for subsequent years.
       TIGTA recently reported that the greatest problem associated with identity theft
cases was the Criminal Investigation function’s inability to identify identity theft victims
whose tax accounts are frozen in future years and to timely determine if the taxpayers are

25
  The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds
Paid to Prisoners (TIGTA Reference Number 2005-10-164, dated September 2005).


                                                  17
again the victims of identity theft. In TIGTA’s opinion, the policy to not freeze the
subsequent years’ accounts will not significantly reduce taxpayer inquiries and could
result in additional lost revenue and significant taxpayer burden.
        If the Criminal Investigation function properly identifies identity theft freezes,
notifies the taxpayers of the freezes, and timely resolves the freezes, the IRS will be
providing a valuable service to the taxpayer while at the same time protecting Federal
revenue.
Noncash Charitable Contributions
        In recent years, the legitimacy of the values placed on some noncash donations
has been questioned by the IRS and Congress. As a result, Congress passed legislation
adding additional reporting requirements to substantiate the value of some of these
donations. Individual taxpayers are required to file a Noncash Charitable Contributions
(Form 8283) if their charitable deductions claimed for noncash contributions exceed
$500. The amount of substantiation to be provided with the Form increases as the value
of the deduction increases.

        We found that the IRS revised tax forms and publications and provided training
and information to employees to facilitate implementation of the new requirements for
claiming noncash charitable contributions. However, taxpayers and tax practitioners still
need to be better educated concerning requirements for claiming charitable contributions.
Also, additional procedures need to be established to identify noncompliance with
charitable contribution requirements during returns processing. Better education of
taxpayers and preparers and additional returns processing procedures will enable the IRS
to address potential noncompliance, as Congress intended in its legislation. TIGTA
estimated that 101,236 taxpayers could have claimed unsubstantiated noncash
contributions totaling approximately $1.8 billion for the period January 15 through
September 21, 2006.26
        TIGTA recommended that IRS officials coordinate to develop a comprehensive
outreach plan on the reporting requirements for noncash charitable contributions for the
affected taxpayers and tax practitioners, and develop procedures to correspond with
taxpayers to obtain missing Forms 8283 and supporting documentation.
        In their response to the report, IRS officials agreed with the first recommendation
to supplement their outreach plans and partially agreed with the second recommendation.
The IRS plans to continue to correspond with taxpayers who claim noncash charitable
contributions over a specific threshold dollar amount and whose Forms 8283 are missing.
In addition, the IRS agreed to use a specific indicator to identify for Examination returns
claiming noncash contributions over the same threshold dollar amount but with no
attached Forms 8283.




26
  The Internal Revenue Service Needs to Improve Procedures to Identify Noncompliance With the
Reporting Requirements for Noncash Charitable Contributions (TIGTA Reference Number 2007-30-049,
dated March 5, 2007).


                                               18
        However, TIGTA believes that the IRS’ dollar threshold for corresponding with
taxpayers or examining returns with missing information is still too high and that few
instances of unsubstantiated deductions will be addressed by the IRS’ actions. Taking
action only when the deduction exceeds this threshold and only when the Form 8283 is
missing (rather than incomplete) is not in keeping with Congress’ intent when passing
legislation related to this issue.
Tax Practitioners
       Tax practitioners play a critical role in the Federal tax system. Many taxpayers
depend on tax practitioners to prepare returns, advise them on tax-related matters, and
represent them before the IRS to resolve tax issues.
Office of Professional Responsibility
        The IRS Office of Professional Responsibility has an oversight role to ensure
licensed tax practitioners (attorneys, certified public accountants (CPA), enrolled agents,
enrolled actuaries, and appraisers) who practice before the IRS adhere to standards of
conduct and professionalism.27 This includes the responsibility for investigating
allegations of misconduct by licensed tax practitioners who represent taxpayers in matters
before the IRS.
        In performing its oversight role, the Office of Professional Responsibility relies
heavily on referrals involving tax practitioner misconduct from several sources including
IRS employees, taxpayers, tax practitioners, law enforcement agencies, and State
licensing authorities.28 Depending on information provided and the results of the
Office’s investigation, the Office of Professional Responsibility can apply disciplinary
actions including a private reprimand, censure (public reprimand), suspension, or
disbarment. A tax practitioner may consent to the proposed disciplinary action, or the
case can be sent for an administrative hearing.
        When the Office of Professional Responsibility takes a disciplinary action against
a tax practitioner, it maintains the action on its case management system. The Office also
records the information on its Intranet Web site and informs the public through Internal
Revenue Bulletins. If the disciplinary action involves an enrolled agent, the Office will
also update its enrolled agent database.29 Furthermore, if the disciplinary action suspends
or revokes the practitioner’s eligibility to practice before the IRS, the Office will notify
the appropriate IRS unit to update the Centralized Authorization File.30 The Centralized
Authorization File is the computer system used by IRS employees to determine the scope
of authority granted by the taxpayers, direct copies of tax notices and correspondence to

27
   The Office of Professional Responsibility was established in January 2003 to replace what was formerly
the Office of the Director of Practice.
28
   A referral can be sent to the Office of Professional Responsibility using a Report of Suspected
Practitioner Misconduct (Form 8484) or a written statement. In addition, the IRS public Web site, IRS.gov,
has a link for tax professionals and taxpayers to submit referrals.
29
   The Enrolled Practitioner Program System is used to record and monitor individuals granted enrolled
agent status by the IRS.
30
   Taxpayers can authorize individuals to represent them on tax returns or other tax-related issues by
submitting a Power of Attorney and Declaration of Representative (Form 2848) to the IRS that is recorded
on the Centralized Authorization File.


                                                   19
taxpayer representatives, and obtain contact information to communicate with taxpayer
representatives. There are approximately 1.4 million representatives on the Centralized
Authorization File with an estimated 407,000 of these listed as licensed tax practitioners.
        Recently, the IRS has placed a greater emphasis on the oversight of tax
practitioners. In its Fiscal Year 2005-2009 Strategic Plan, the IRS included a number of
strategies to ensure attorneys, accountants, and other tax practitioners adhere to
professional standards and follow the law. These strategies include outreach and
education to tax practitioners and IRS operating divisions related to the standards of
conduct, the IRS role in enforcing the standards, and the use of disciplinary actions when
appropriate. To help ensure adequate resources are devoted to provide this oversight, the
IRS substantially increased the budget and staffing of the Office of Professional
Responsibility. In Fiscal Year 2002, the Office had a budget of $1.8 million and a staff
of 15. By Fiscal Year 2005, the Office had a budget of $5 million and a staff of 56.
During this time, the number of disciplinary actions by the Office also increased,
primarily because of expedited suspensions, which are generally used by the Office in
response to action already taken by Federal or State Government agencies to convict or
disbar a tax practitioner or to revoke a practitioner’s license.
         One area in which the IRS has focused its enforcement is on tax practitioners who
promote abusive tax avoidance transactions such as abusive tax shelters. This emphasis
is in response to a growing problem with the promotion and use of abusive tax shelters.
A number of IRS divisions and functions have taken a coordinated approach in
addressing this problem. Furthermore, Treasury guidelines were revised to impose
stricter standards on individuals and firms that provide advice related to transactions
intended to shelter income from taxation. The new rules strengthen the standards to help
ensure practitioners analyze and address carefully whether a particular transaction has a
legitimate business reason and is not solely for tax benefits. In addition, monetary
penalties can be imposed on promoters of abusive tax shelters in addition to any
suspension, disbarment, or censure of a practitioner.31
        Notwithstanding the increases in enforcement activity, there are still a significant
number of tax practitioners whose conduct appears to warrant disciplinary action by the
IRS but who have not been identified by the Office of Professional Responsibility.
TIGTA’s audit of the Office of Professional Responsibility in 2006 determined that the
IRS needs to improve its ability to identify such practitioners so it can take appropriate
disciplinary actions.32 Some tax practitioners who have been convicted of tax-related
crimes or whose licenses have been suspended or revoked by State authorities were not
suspended from practice before the IRS.
        In addition, the IRS did not have an adequate method to notify the Office of
Professional Responsibility of tax practitioners who were not compliant with their own
tax obligations. In a statistical sample of 750 of the approximately 407,000 licensed tax
practitioners, there were 34 (4.5 percent) who were not compliant with their individual
31
   American Jobs Creation Act of 2004, Pub. L. No. 108–357, 118 Stat. 1418 (2004) and Treasury
Department Circular No. 230 (new regulations in effect June 20, 2005).
32
   The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against
Incompetent and Disreputable Tax Practitioners (TIGTA Reference Number 2006-10-066, dated March
2006).


                                                20
tax obligations. These 34 practitioners had a total of 81 tax periods with balances due of
$826,709 and 34 tax periods for which required tax returns had not been filed.33 Based
on the sample, TIGTA estimated there were approximately 22,500 licensed tax
practitioners who were not compliant with their tax obligations but who had not been
identified for referral to the Office of Professional Responsibility.
        TIGTA previously reviewed the Office of Professional Responsibility in 2001
(the Office of Professional Responsibility was then known as the Office of the Director of
Practice) and reported problems with the lack of information needed to assess or manage
the resources used for the disciplinary proceedings program.34 TIGTA reported that the
case management system was not used effectively to monitor program activities and
resources and that case information was not always updated or accurate. During the 2006
review, TIGTA found the Office had not implemented some of the recommendations
from the 2001 audit. Consequently, the problems reported in 2001 still existed. The
Office still did not have information needed to effectively monitor program activities and
resources, and the case management system still contained unreliable information.
        In addition to recommending that the IRS implement recommendations from
TIGTA’s 2001 audit report, TIGTA recommended that the Director, Office of
Professional Responsibility, work with other law enforcement agencies, including the
Department of Justice, to improve the referral process and develop a process to obtain
relevant information on State disciplinary actions by coordinating with State licensing
authorities such as State bar associations and boards of accountancy. TIGTA also
recommend that the Director work with other IRS functions to develop a method of
uniquely identifying representatives on the Centralized Authorization File and use the
information to notify the Office of Professional Responsibility when representatives are
not compliant with their individual tax obligations. The IRS agreed with TIGTA’s
recommendations.
Electronic Return Originators
      E-file Providers, including Electronic Return Originators, originate the electronic
submission of income tax returns to the IRS. E-file Providers electronically submit
income tax returns that are either prepared by them or collected from a taxpayer. As of
November 17, 2006 there were 164,958 active e-file Providers.
        The primary means the IRS uses to regulate e-file Providers are the application
screening process and the monitoring program. E-file Providers must meet age and
citizenship requirements, pass a criminal background check or have a professional
certification,35 and pass tax compliance verifications. The monitoring program is
designed to ensure e-file Providers are in compliance with e-file regulations.


33
   A tax period is a measure of time for which a tax return is required to be filed.
34
   Improved Case Monitoring and Taxpayer Awareness Activities Can Enhance the Effectiveness of the Tax
Practitioner Disciplinary Proceedings Program (TIGTA Reference Number 2001-10-027, dated January
2001).
35
   A fingerprint card is not required if the applicant has a professional certification. For applicants that do
submit fingerprint cards, only one in four is sent for a Federal Bureau of Investigation criminal background
check.


                                                     21
        In Fiscal Year 2004, TIGTA assessed the IRS’ regulation of Electronic Return
Originators and reported it authorized individuals to participate in the e-file Program
without ensuring they met all required screening checks.36 For the limited number of
individuals that were subjected to a criminal background check, procedures did not
ensure the results from the criminal background check were properly analyzed before
making a decision regarding acceptance in the program. In addition, the monitoring
program did not include requirements to perform periodic criminal background checks or
to analyze and use the results of the percentage of an Electronic Return Originator’s
rejected returns37 as an indicator of noncompliance.
        In response, the IRS agreed to: (1) validate both the Social Security Number and
date of birth during the e-file application process; (2) ensure criminal background checks
are obtained electronically; (3) request the Federal Bureau of Investigation perform a
background check using name and other available information on unprocessable
fingerprint cards; (4) ensure individuals who provide professional certifications are in
current standing; and (5) use e-file reject rates for selecting monitoring visits. The IRS
did not agree to periodic criminal background checks of e-file Providers stating checks
are done initially.
       TIGTA is currently conducting an audit to follow up on these actions and to
determine whether the IRS’ screening and monitoring of e-file Providers is effective.
TIGTA plans to report the results in August 2007.
Conclusions
        While the 2007 Filing Season appears to be progressing without major problems,
TIGTA is concerned that changes in the Free File Agreement and the elimination of
Telefile Program in 2005 may be contributing to a significant slowing of the growth in
electronic filing this year. The IRS discontinued the Telefile program for individual
taxpayers in August 2005. The TeleFile Program allowed taxpayers with the simplest tax
returns38 to file their returns by telephone.
        This slowed growth comes at a time when the IRS is still far from reaching
Congress’ goal of 80 percent electronic filing by 2007. Slower growth in electronic filing
will defer the efficiency gains for the IRS that result from electronic filing.
        Additionally, TIGTA is concerned about the IRS’ telephone excise tax refund
program. While the IRS took corrective actions to address concerns about processing
thresholds, the IRS declined to re-examine all options at its disposal to address
significantly more inappropriate telephone excise tax refund claims, including offering
taxpayers the opportunity to self-correct their returns, the postponement of some


36
   Improvements Are Needed in the Screening and Monitoring of E-File Providers to Protect Against Filing
Fraud (TIGTA Reference Number 2004-40-013, dated November 2003).
37
   When an e-filed return is transmitted to the IRS, it is run through a series of validity and error checks.
These checks look for such things as names and Social Security Numbers that match IRS records, math
errors, and other common errors. If errors are found, the return is rejected back to the originator to fix the
error and resubmit the return. The percentage of returns transmitted versus returns rejected is known as the
“reject rate.”
38
   Forms 1040EZ.


                                                     22
examination work, and the working (or partial working) of some of the simpler cases by
non-examination employees.
       Furthermore, TIGTA is concerned about the growth in tax fraud and identity theft.
These concerns are heightened during the filing season. Identity theft for tax fraud
purposes is trending up and the IRS needs to ensure it effectively addresses this growth.
While the IRS has begun to address the problem of identity theft, there is still much that
needs to be done.
        I hope my discussion of some of the 2007 Filing Season and identity theft issues
will assist you with your oversight of the IRS. Mr. Chairman and Members of the
Committee, thank you for the opportunity to share my views.




                                           23
